Appendix
District Court’s Order Denying Suppression Motion (February 28, 2017) ................................... 1a
Ninth Circuit’s Memorandum Decision (January 9, 2020) ........................................................... 7a
Ninth Circuit’s Order Amending Decision & Denying Petition for Rehearing (June 30, 2020). 11a
Ninth Circuit’s Amended Memorandum Decision (June 30, 2020) ............................................ 13a

25

Case 5:16-cr-00146-R Document 90 Filed 02/28/17 Page 1 of 6 Page ID #:688

1
2
3
4
5
6
7

UNITED STATES DISTRICT COURT

8

CENTRAL DISTRICT OF CALIFORNIA

9
10

UNITED STATES OF AMERICA,

11

Plaintiff,

12
13
14

v.
MARCOS ALEJANDRO GONZALEZ
FLORES and PAIGE IRENE ALLEN,

15
Defendants.
16
17
18

)
)
)
)
)
)
)
)
)
)
)
)

CASE NO. CR-16-146-R
ORDER DENYING DEFENDANTS’
MOTION TO SUPPRESS AND
SUPPLEMENTAL MOTION TO
SUPPRESS

Before the Court are Defendants’ Motion to Suppress, which was filed on January 24,

19

2017 (Dkt. No. 72), and Supplemental Motion to Suppress, which was filed on February 10, 2017

20

(Dkt. No. 76). Having been thoroughly briefed by all parties, this Court took the matter under

21

submission on February 22, 2017.

22

Defendants seek to suppress all evidence and observations derived from the execution of

23

the search warrant. First, Defendants argue that the search warrant was not sufficiently particular

24

to meet the requirements of the Fourth Amendment. Second, Defendants argue that even if the

25

search did not exceed the scope of the warrant, the search was conducted in an unreasonable

26

manner. Lastly, in a Supplemental Motion to Suppress, Defendants argue that the search warrant

27

was not supported by probable cause. For the reasons discussed below, the Court denies both

28

Motions to Suppress.

Appendix 1a

Case 5:16-cr-00146-R Document 90 Filed 02/28/17 Page 2 of 6 Page ID #:689

1

Based on a confidential informant and an anonymous tip, between February and March

2

2016, law enforcement officers conducted an investigation of Auto Shop Solutions in Riverside

3

believed to be a front for a narcotics operation. Riverside police officers surveilled the premises,

4

people, and vehicles both in person and via a conspicuous, stationary camera. The investigation,

5

led by Detective Scott Levesque, revealed customers coming and going from Auto Shop Solutions

6

at odd hours, leaving without having work done to their cars, carrying bags or suitcases, and

7

customers driving their car into the shop and leaving with cardboard boxes loaded in their trunks.

8

Based on nighttime aerial surveillance which revealed lights turned on uniformly from the front of

9

Auto Shop Solutions in a continuous path to the back of the building, Detective Levesque believed

10

that the auto shop extended from the front of the building to the back. On the basis of Detective

11

Levesque’s declaration detailing these observations among others, law enforcement officers

12

obtained a search warrant for Auto Shop Solutions.

13

The search warrant permitted a search of “THE PREMISES at 9000 Arlington Ave., Suite

14

# 114, Riverside, California, 92503 . . . including all rooms, attics, basements, and other parts

15

therein, all safes, locked cabinets, containers, and boxes, the surrounding grounds and any garages

16

attached or detached, storage rooms, trash containers, and outbuildings of any kind located

17

thereon.” Law enforcement officers executed the search warrant. In the initial search of the auto

18

shop, Detective Levesque was surprised to find the auto shop to be smaller than he expected based

19

on his investigation. Around the same time, another officer located a noisy fan which was

20

covering three-foot-by-three-foot hole in an interior wall. The officer pushed the fan and it rolled

21

away from the hole. Through the hole, on the other side of the wall, the officer observed a large

22

room filled with several cars. Without expanding the hole, the officers crawled through to the

23

adjoining room and in their initial sweep found firearms, marijuana, equipment for packaging

24

marijuana, and a television with surveillance footage of the auto shop. After this initial search of

25

the adjoining room, a sergeant authorized the officers to cut a larger, door-sized hole where the fan

26

was first discovered. At the completion of the search, officers had uncovered a large quantity of

27

marijuana, multiple firearms, and drug paraphernalia. Additionally, the officers discovered

28

multiple hidden walls and rooms within the building both during the search and after its
2

Appendix 2a

Case 5:16-cr-00146-R Document 90 Filed 02/28/17 Page 3 of 6 Page ID #:690

1

conclusion. Defendant contends, and the Government does not dispute, that the adjoining room

2

was actually Suite 106, the suite next to Suite 114.

3

Prior to the search of the auto shop, law enforcement conducted a search of two pieces of

4

mail, one addressed to Auto Shop Solutions and one addressed to Paige Allen. Postal Inspection

5

Service Inspector Anthony Jacobs obtained a warrant to search both parcels. The search warrant

6

was supported by Inspector Jacobs’s affidavit detailing in relevant part, a narcotics detection dog’s

7

external examination of the packages and subsequent positive alert for controlled substances. The

8

affidavit stated that the detection dog known as “Link” gave a positive alert on both parcels for

9

“the presence of controlled substances or other items, such as the proceeds of controlled

10

substances, which have been recently contaminated with, or associated with, the odor of one or

11

more controlled substances. . . .” The affidavit also included “Link’s” narcotic detection

12

certification. The search of the parcels uncovered $13,000 in United States currency in each.

13

Defendants first argue that the search warrant’s description of the place to be searched was

14

not sufficiently particular to enable law enforcement officers to locate Suite 106. Analogizing to

15

United States v. Collins, 830 F.2d 145 (9th Cir. 1987), the Defendants argue that “although the

16

warrant in this cased sufficiently described Suite #114, it did not ‘describe[] [Suite #106] with

17

sufficient particularity to enable the executing officer to locate’ Suite #106 (i.e. the location to be

18

searched).” (alterations in original). Defendants’ argument misses the mark. First, this case is not

19

analogous to Collins. In Collins, the search warrant was issued for 300 Springdale Street which

20

was described as “the last house on the west side” of the street. Id. at 145. Officers searched 300

21

Springdale Street, determined that was not the last house on the west side, and proceeded to locate

22

and then search the last house on the west side of the street. Id. In contrast, here, the search

23

warrant described 9000 Arlington Avenue, Suite 114, law enforcement officers searched that

24

address, and during the search of that address found an adjoining room containing contraband.

25

The search warrant did not describe Suite 106 with particularity because Detective Levesque did

26

not intend to search Suite 106. For the reasons discussed below, the search of the adjoining room

27

was within the scope of the search warrant.

28

The search warrant permitted the search of 9000 Arlington Ave, Suite 114 as well as the
3

Appendix 3a

Case 5:16-cr-00146-R Document 90 Filed 02/28/17 Page 4 of 6 Page ID #:691

1

rooms therein, the surrounding grounds, attached or detached garages, and storage rooms. The

2

government contends that this language permitted the search of the concealed room discovered

3

during the search. “Whether a search exceeds the scope of a search warrant is an issue we

4

determine through an objective assessment of the circumstances surrounding the issuance of the

5

warrant, the contents of the search warrant, and the circumstances of the search.” United States v.

6

Hitchcock, 286 F.3d 1064, 1071 (9th Cir. 2002). To determine whether to exclude evidence

7

discovered outside the scope of a search warrant, courts “use an objective test: would a reasonable

8

officer have interpreted the warrant to permit the search at issue.” United States v. Gorman, 104

9

F.3d 272, 274 (9th Cir. 1996). Here, the circumstances rendered the adjoining room within the

10

scope of the search warrant and a reasonable officer would have interpreted the warrant to permit

11

the search of an adjoining room storing cars.

12

Both the contents of the search warrant and the circumstances of the search indicate that

13

the adjoining room was within the scope of the warrant. The explicit language of the search

14

warrant included “storage rooms” and “garages attached or detached.” The adjoining room was

15

being used to store cars. As such, it fits squarely within the terms of the search warrant.

16

Additionally, the circumstances of the search indicate that Detective Levesque believed that Suite

17

114 contained hidden rooms and expected the auto shop to occupy space from the front of the

18

building to the back. Detective Levesque stated in the search warrant application that he

19

anticipated Auto Shop Solutions may contain “hidden walls and compartments.” When Detective

20

Levesque entered the auto shop and was surprised to see that it did not reach the back of the

21

building as he expected, he would have been particularly alert for hidden rooms attached to the

22

smaller space in which he found himself. These circumstances indicate that a hidden attached

23

room was within the scope of the search warrant. On this record, it is clear that a reasonable

24

officer would have interpreted the search warrant to include a hidden adjoining room used to store

25

cars in the back of the auto shop. Accordingly, the search was within the scope of the search

26

warrant, and even if it was not, the evidence should not be excluded.

27
28

Defendants next argue that even if the search did not exceed the scope of the warrant, by
cutting a door-sized hole in the wall between the auto shop and the adjoining room, the search was
4

Appendix 4a

Case 5:16-cr-00146-R Document 90 Filed 02/28/17 Page 5 of 6 Page ID #:692

1

conducted in a manner that violated the Fourth Amendment. The Government argues that the

2

search was conducted in a reasonable manner, and, even if it was unreasonable, cutting a hole in

3

the wall did not lead to the discovery of evidence and therefore the evidence discovered should not

4

be suppressed. The manner in which a search warrant is executed is subject to judicial review for

5

reasonableness. Dalia v. United States, 441 U.S. 238 (1979). “[D]estruction of property that is

6

not reasonably necessary to effectively execute a search warrant may violate the Fourth

7

Amendment.” United States v. Becker, 929 F.2d 442, 446 (9th Cir. 1991) (quoting Tarpley v.

8

Greene, 684 F.2d 1, 9 (D.C. Cir. 1982)). “Claims that otherwise reasonable searches have been

9

conducted in an unconstitutionally unreasonable manner must be judged under the facts and

10

circumstances of each case.” Id.

11

Expanding the size of the existing hole in the wall between Suite 114 and the adjoining

12

room did not lead to the discovery of evidence. Detective Levesque stated that the decision to

13

expand the hole was made in order to facilitate the search by allowing several officers on site to

14

remove contraband discovered in the adjoining room. However, prior to that decision, officers

15

had already crawled through the three-foot-by-three-foot hole and discovered firearms, marijuana,

16

and equipment for packaging marijuana. “[T]he exclusionary rule applies only when discovery of

17

evidence results from a Fourth Amendment violation. . . .” United States v. Ankeny, 502 F.3d 829,

18

837 (9th Cir. 2007). Thus, even if it was unreasonable to expand the hole in the wall, there is no

19

causal connection between the unreasonable conduct and the discovery of evidence. Accordingly,

20

the Court need not determine whether the search was conducted in a constitutionally reasonable

21

manner.

22

Finally, in the Supplemental Motion to Suppress, Defendants argue that because police

23

detection dog “Link” did not have training to detect United States currency, the search warrant

24

was not supported by probable cause. However, nowhere did the government claim that “Link”

25

detected currency in the parcels. The affidavit explicitly stated that “Link” alerted for the presence

26

of controlled substances or materials recently contaminated with the scent of controlled

27

substances. “If a bona fide organization has certified a dog after testing his reliability in a

28

controlled setting, a court can presume (subject to any conflicting evidence offered) that the dog’s
5

Appendix 5a

Case 5:16-cr-00146-R Document 90 Filed 02/28/17 Page 6 of 6 Page ID #:693

1

alert provides probable cause to search.” Florida v. Harris, -- U.S. --, 133 S. Ct. 1050, 1057

2

(2013). Here, Defendants have offered no conflicting evidence. Instead, they have relied on an

3

argument unsupported by the underlying facts. Neither Riverside Police nor the Postal Inspection

4

Service claimed that “Link” detected currency. Rather, they stated that “Link” positively alerted

5

indicating the presence of controlled substances or items contaminated with their scent. “Link”

6

had the training and certification to render such an alert reliable. Therefore, the search warrant

7

was supported by probable cause.
IT IS HEREBY ORDERED that Defendants’ Motion to Suppress is DENIED. (Dkt. No.

8
9
10
11

72).
IT IS HEREBY FURTHER ORDERED that Defendants’ Supplemental Motion to
Suppress is DENIED. (Dkt. No. 76).

12
13

Dated: February 28, 2017.

14
15
16
17

___________________________________
MANUEL L. REAL
UNITED STATES DISTRICT JUDGE

18
19
20
21
22
23
24
25
26
27
28
6

Appendix 6a

Case: 17-50269, 01/09/2020, ID: 11555924, DktEntry: 69-1, Page 1 of 4

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

FILED
JAN 9 2020
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellant,

No.

U.S. COURT OF APPEALS

17-50269

D.C. No. 5:16-cr-00146-R-1

v.
MEMORANDUM*
MARCOS ALEJANDRO GONZALEZ
FLORES,
Defendant-Appellee.
UNITED STATES OF AMERICA,
Plaintiff-Appellee,

No.

17-50270

D.C. No. 5:16-cr-00146-R-1

v.
MARCOS ALEJANDRO GONZALEZ
FLORES,
Defendant-Appellant.
Appeal from the United States District Court
for the Central District of California
Manuel L. Real, District Judge, Presiding
Argued and Submitted December 10, 2019
Pasadena, California

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.

Appendix 7a

Case: 17-50269, 01/09/2020, ID: 11555924, DktEntry: 69-1, Page 2 of 4

Before: O’SCANNLAIN, PAEZ, and OWENS, Circuit Judges.
The government appeals the district court’s imposition of a sentence below
the mandatory minimum. Marcos Alejandro Gonzalez Flores (“Gonzalez”) crossappeals the district court’s denial of his suppression motion. We have jurisdiction
under 28 U.S.C. § 1291. “We review de novo the legality of a criminal
sentence . . . .” United States v. Moreno-Hernandez, 48 F.3d 1112, 1114 (9th Cir.
1995). We also review de novo the denial of a suppression motion and review for
clear error the factual findings underlying such a denial. United States v. Brobst,
558 F.3d 982, 991 (9th Cir. 2009). We vacate the sentence, affirm the denial of the
motion to suppress, and remand to the district court for resentencing.
1. As an initial matter, we reject Gonzalez’s challenge to the propriety of
the government’s appeal. First, the appellate waiver provision in the parties’ plea
agreement does not bar the appeal of an unlawful sentence. United States v.
Bibler, 495 F.3d 621, 624 (9th Cir. 2007) (“An appeal waiver will not apply if . . .
the sentence violates the law.”). Second, we are satisfied the appeal was properly
authorized under 18 U.S.C. § 3742(b) by the Acting Solicitor General Jeffrey Wall.
See 5 U.S.C. §§ 3345(a)(1), 3346(a)(1); 28 C.F.R. § 0.137(b). Finally, the
government timely filed its notice of appeal on July 26, 2017; the government’s
filing of a second, identical notice of appeal on August 1, 2017, after the district
court’s clerk’s office requested the first notice be refiled under the correct “event”

2

Appendix 8a

Case: 17-50269, 01/09/2020, ID: 11555924, DktEntry: 69-1, Page 3 of 4

code, does not render the appeal untimely. Cf. United States v. Arevalo, 408 F.3d
1233, 1237−39 (9th Cir. 2005) (concluding an appeal was untimely where seven
months had elapsed between appellant’s voluntary dismissal of the appeal and his
attempt to reinstate it); Williams v. United States, 553 F.2d 420, 422 (5th Cir.
1977) (where ten months elapsed between the same).
2. As to the merits of the government’s appeal, the district court erred in
imposing a sentence that disregarded the mandatory consecutive penalty.
Gonzalez pleaded guilty to offenses that carry mandatory minimum sentences of
five years each, which must run consecutively. See 21 U.S.C. § 841(b)(1)(B)(vii);
18 U.S.C. § 924(c)(1)(A)(i), (c)(1)(D)(ii). The district court sentenced Gonzalez to
72- and 60-month terms to run concurrently. That was error. See United States v.
Sykes, 658 F.3d 1140, 1146 (9th Cir. 2011) (“It is axiomatic that a statutory
minimum sentence is mandatory.”). We vacate the unlawful sentence and remand
to the district court for resentencing.
3. Finally, we determine that the district court did not err in denying
Gonzalez’s motion to suppress evidence obtained during the search of his business.
Police obtained a warrant to search “Suite 114” of a multi-unit commercial
complex. While executing the warrant, they discovered a hidden three-by-threefoot hole leading from Suite 114 into a second unit (not within the scope of the
warrant), which they erroneously believed was part of Suite 114. We conclude

3

Appendix 9a

Case: 17-50269, 01/09/2020, ID: 11555924, DktEntry: 69-1, Page 4 of 4

that, under the circumstances, it was “objectively understandable and reasonable”
for the officers to believe this second space was part of Suite 114 and thus to
search it. Maryland v. Garrison, 480 U.S. 79, 88 (1987). Accordingly, we affirm
the denial of the motion to suppress.
AFFIRMED IN PART, VACATED IN PART, AND REMANDED.

4

Appendix 10a

Case: 17-50269, 06/30/2020, ID: 11737656, DktEntry: 74, Page 1 of 6

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
JUN 30 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

UNITED STATES OF AMERICA,
Plaintiff-Appellant,
v.
MARCOS ALEJANDRO GONZALEZ
FLORES,

No.

17-50269

D.C. No. 5:16-cr-00146-R-1
Central District of California,
Riverside
ORDER

Defendant-Appellee.
UNITED STATES OF AMERICA,
Plaintiff-Appellee,

No.

17-50270

D.C. No. 5:16-cr-00146-R-1

v.
MARCOS ALEJANDRO GONZALEZ
FLORES,
Defendant-Appellant.
Before: O'SCANNLAIN, PAEZ, and OWENS, Circuit Judges.
The memorandum disposition filed on January 9, 2020 is amended as
follows:
On page 4, delete:
Accordingly, we affirm the denial of the motion to suppress.
On page 4, add:

Appendix 11a

Case: 17-50269, 06/30/2020, ID: 11737656, DktEntry: 74, Page 2 of 6

4. We reject Gonzalez’s argument that the district court abused its
discretion by ruling on Gonzalez’s motion to suppress without holding
an evidentiary hearing. “An evidentiary hearing on a motion to
suppress need be held only when the moving papers allege facts with
sufficient definiteness, clarity, and specificity to enable the trial court
to conclude that contested issues of fact exist.” United States v.
Howell, 231 F.3d 615, 620 (9th Cir. 2000). Gonzalez’s motion did
not meet that standard.
The amended memorandum is filed concurrently with this order.
The petition for rehearing (Dkt. 72) is denied. No further petitions for
rehearing may be filed.

2

Appendix 12a

Case: 17-50269, 06/30/2020, ID: 11737656, DktEntry: 74, Page 3 of 6

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

FILED
JUN 30 2020
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellant,
v.

No.

U.S. COURT OF APPEALS

17-50269

D.C. No. 5:16-cr-00146-R-1
AMENDED
MEMORANDUM*

MARCOS ALEJANDRO GONZALEZ
FLORES,
Defendant-Appellee.
UNITED STATES OF AMERICA,
Plaintiff-Appellee,

No.

17-50270

D.C. No. 5:16-cr-00146-R-1

v.
MARCOS ALEJANDRO GONZALEZ
FLORES,
Defendant-Appellant.
Appeal from the United States District Court
for the Central District of California
Manuel L. Real, District Judge, Presiding
Argued and Submitted December 10, 2019
Pasadena, California

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.

Appendix 13a

Case: 17-50269, 06/30/2020, ID: 11737656, DktEntry: 74, Page 4 of 6

Before: O’SCANNLAIN, PAEZ, and OWENS, Circuit Judges.
The government appeals the district court’s imposition of a sentence below
the mandatory minimum. Marcos Alejandro Gonzalez Flores (“Gonzalez”) crossappeals the district court’s denial of his suppression motion. We have jurisdiction
under 28 U.S.C. § 1291. “We review de novo the legality of a criminal
sentence . . . .” United States v. Moreno-Hernandez, 48 F.3d 1112, 1114 (9th Cir.
1995). We also review de novo the denial of a suppression motion and review for
clear error the factual findings underlying such a denial. United States v. Brobst,
558 F.3d 982, 991 (9th Cir. 2009). We vacate the sentence, affirm the denial of the
motion to suppress, and remand to the district court for resentencing.
1. As an initial matter, we reject Gonzalez’s challenge to the propriety of
the government’s appeal. First, the appellate waiver provision in the parties’ plea
agreement does not bar the appeal of an unlawful sentence. United States v.
Bibler, 495 F.3d 621, 624 (9th Cir. 2007) (“An appeal waiver will not apply if . . .
the sentence violates the law.”). Second, we are satisfied the appeal was properly
authorized under 18 U.S.C. § 3742(b) by the Acting Solicitor General Jeffrey Wall.
See 5 U.S.C. §§ 3345(a)(1), 3346(a)(1); 28 C.F.R. § 0.137(b). Finally, the
government timely filed its notice of appeal on July 26, 2017; the government’s
filing of a second, identical notice of appeal on August 1, 2017, after the district
court’s clerk’s office requested the first notice be refiled under the correct “event”

2

Appendix 14a

Case: 17-50269, 06/30/2020, ID: 11737656, DktEntry: 74, Page 5 of 6

code, does not render the appeal untimely. Cf. United States v. Arevalo, 408 F.3d
1233, 1237−39 (9th Cir. 2005) (concluding an appeal was untimely where seven
months had elapsed between appellant’s voluntary dismissal of the appeal and his
attempt to reinstate it); Williams v. United States, 553 F.2d 420, 422 (5th Cir.
1977) (where ten months elapsed between the same).
2. As to the merits of the government’s appeal, the district court erred in
imposing a sentence that disregarded the mandatory consecutive penalty.
Gonzalez pleaded guilty to offenses that carry mandatory minimum sentences of
five years each, which must run consecutively. See 21 U.S.C. § 841(b)(1)(B)(vii);
18 U.S.C. § 924(c)(1)(A)(i), (c)(1)(D)(ii). The district court sentenced Gonzalez to
72- and 60-month terms to run concurrently. That was error. See United States v.
Sykes, 658 F.3d 1140, 1146 (9th Cir. 2011) (“It is axiomatic that a statutory
minimum sentence is mandatory.”). We vacate the unlawful sentence and remand
to the district court for resentencing.
3. Finally, we determine that the district court did not err in denying
Gonzalez’s motion to suppress evidence obtained during the search of his business.
Police obtained a warrant to search “Suite 114” of a multi-unit commercial
complex. While executing the warrant, they discovered a hidden three-by-threefoot hole leading from Suite 114 into a second unit (not within the scope of the
warrant), which they erroneously believed was part of Suite 114. We conclude

3

Appendix 15a

Case: 17-50269, 06/30/2020, ID: 11737656, DktEntry: 74, Page 6 of 6

that, under the circumstances, it was “objectively understandable and reasonable”
for the officers to believe this second space was part of Suite 114 and thus to
search it. Maryland v. Garrison, 480 U.S. 79, 88 (1987).
4. We reject Gonzalez’s argument that the district court abused its discretion
by ruling on Gonzalez’s motion to suppress without holding an evidentiary
hearing. “An evidentiary hearing on a motion to suppress need be held only when
the moving papers allege facts with sufficient definiteness, clarity, and specificity
to enable the trial court to conclude that contested issues of fact exist.” United
States v. Howell, 231 F.3d 615, 620 (9th Cir. 2000). Gonzalez’s motion did not
meet that standard.
AFFIRMED IN PART, VACATED IN PART, AND REMANDED.

4

Appendix 16a

